LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 6, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-720: UNITED STATES OF AMERICA V. RILEY BRIONES, JR.
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Respondent, on April 6,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioner:
PETITIONER:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov
This service was effected by depositing three copies of a Brief in Opposition in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 6th day of April 2020.

